No. 20A-

IN THE
Supreme Court of the United States

DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY,
ex rel. ATTORNEY GENERAL DANIEL CAMERON,
Applicants,

Vv.
ANDREW BESHEAR, in his official capacity as Governor of Kentucky,

Respondent.

To the Honorable Brett M. Kavanaugh, Associate Justice of the
Supreme Court of the United States and Circuit Justice for the Sixth
Circuit

CERTIFICATE OF SERVICE
I, Barry L. Dunn, a member of the Bar of this Court, certify that on this 30th
day of November 2020, I caused a copy of Applicants’ Emergency Application to
Vacate the Sixth Circuit’s Stay of the Preliminary Injunction Issued by the U.S.
District Court of Kentucky to be sent via Next Day Service to the U.S. Supreme Court,
and to be served by electronic mail and personally by hand delivery upon all parties
required to be served, which includes the following:

Amy Cubbage

S. Travis Mayo

Marc G. Farris

Taylor Payne

Office of the Governor

700 Capitol Building, Suite 106
Frankfort, Kentucky 40601
(502) 564-2611
Amy.Cubbage@ky.gov
Travis.Mayo@ky.gov
Marc.Farris@ky.gov
Taylor.Payne@ky.gov

Counsel for Respondent Andrew Beshear

I further certify that service of a copy of the same was made via electronic mail
and U.S. mail upon the following:

Matthew T. Martens

Kevin Gallagher

WILMER CUTLER PICKERING HALE AND DORR LLP
1875 Pennsylvania Avenue, NW

Washington, DC 20006

(202) 663-6921

Matthew.Martens@wilmerhale.com
Kevin.Gallagher@wilmerhale.com

Kelly J. Shackelford

Jeffrey C. Mateer

Hiram Sasser

David J. Hacker

Justin E. Butterfield

Roger Byron

FIRST LIBERTY INSTITUTE
2001 W. Plano Pkwy., Ste. 1600
Plano, Texas 75075

(469) 440-7586
kshackelford@firstliberty.org
jmateer@firstliberty.org
hsasser@firstliberty.org
dhacker@firstliberty.org
jbutterfield@firstliberty.org
rbyron@firstliberty.org

Joseph A. Bilby

BILBY LAW PLLC

222 Eastover Drive
Frankfort, Kentucky 40601
(502) 409-1778
joe@bilbylaw.com

Counsel for Applicant Danville Christian Academy

/s/ Barry L. Dunn
Barry L. Dunn

Counsel of Record
Deputy Attorney General
Office of the Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov

Counsel for Applicant
Commonwealth of Kentucky
